TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Voucher Audit of the Treasury Information
                   Processing Support Services Contract –
                             TIRNO-00-D-00013




                                         September 2005

                              Reference Number: 2005-10-145




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2005


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Voucher Audit of the Treasury Information
                             Processing Support Services Contract – TIRNO-00-D-00013
                             (Audit # 200510015)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Treasury
 Information Processing Support Services Contract – TIRNO-00-D-00013. The overall objective
 of this audit was to determine whether selected vouchers submitted and paid under contract
 number TIRNO-00-D-00013 were appropriate and in accordance with the contract’s terms and
 conditions.

 Synopsis
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 We initiated this audit to determine whether the vouchers submitted by the contractor and paid
 by the IRS were accurate, supported, and allowable.
 Our review resulted in the identification of questionable charges of $1,809, which consisted of
 unallowable costs, unsupported cost, unreasonable cost, miscalculated indirect cost, and related
 fees.
 As part of this audit, we also examined contract correspondence files and interviewed the
 Contracting Officer and Contracting Officer’s Technical Representatives to determine whether
 the contractor’s performance was satisfactory. Based on these limited auditing procedures,
 nothing came to our attention that would lead us to believe there were significant problems with
 the deliverables associated with the task orders included in our tests.
                Voucher Audit of the Treasury Information Processing Support
                          Services Contract – TIRNO-00-D-00013




Recommendation
We recommended the Director, Office of Procurement, ensure the appropriate Contracting
Officer reviews the identified questionable charges of $1,809 and initiate any recovery actions
deemed warranted.

Response
The IRS agreed with our recommendation. The Office of Procurement has accepted a credit of
$1,809 from the contractor and has processed the appropriate documentation, which has become
part of the task order file. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                  2
                       Voucher Audit of the Treasury Information Processing Support
                                 Services Contract – TIRNO-00-D-00013




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Voucher Verification Process .............Page 2
                    Recommendation 1:..........................................................Page 5

          Contract Deliverables Were Acceptable.......................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measures...............................................................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
                    Voucher Audit of the Treasury Information Processing Support
                              Services Contract – TIRNO-00-D-00013




                                             Background

In June 2000, the Internal Revenue Service (IRS) awarded contract number TIRNO-00-D-00013,
an indefinite-delivery indefinite-quantity contract as a part of a series of the Treasury
Information Processing Support Services (TIPSS) contracts. The objective of the June 2000
contract was to provide a continuation of the broad range of information technology-related
services initiated by the original TIPSS contracts.1 The IRS awarded task orders against the
contract on either a cost-plus-fixed-fee basis or a firm-fixed-price basis.
The contract was awarded for a 1-year base period through May 31, 2001, with 4 option years
that would extend the contract through May 31, 2005. The IRS exercised all the options
available under the contract. According to the IRS Request Tracking System,2 as of
February 17, 2005, the IRS awarded 24 task orders with a total value not to exceed
approximately $60.7 million, and recorded approximately $54 million in transactions against
these task orders.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration (TIGTA) made a commitment to perform audits of these
expenditures. This audit was designed to determine whether amounts paid by the IRS under this
contract were accurate, supported, and allowable through a review of contractor vouchers and
supporting documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide
Shared Services in Oxon Hill, Maryland, and the contractor’s facility located in
Andover, Massachusetts, during the period February through May 2005. Opinions expressed in
this report only pertain to the task orders and vouchers included in our random and judgmental
samples.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
  The TIPSS contracts provide services to the IRS in the four principal task areas of Information Systems,
Telecommunications Support, Organizational/Management, and Operational Support.
2
  The Request Tracking System allows IRS personnel to prepare, approve, fund, and track requests for the delivery
of goods and services. The System also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.
                                                                                                             Page 1
                 Voucher Audit of the Treasury Information Processing Support
                           Services Contract – TIRNO-00-D-00013




                                 Results of Review

Questionable Contract Charges and Voucher Verification Process

We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a sample of 25 vouchers. The
vouchers were selected using a combination of a random and judgmental sampling method (see
Appendix I for details). The sampled vouchers related to 11 task orders with award amounts
totaling approximately $53.1 million and transactions of approximately $46.6 million. The
25 vouchers had performance dates from December 2002 to September 2004 and involved
approximately $5.8 million in IRS payments.
The primary expenses claimed by the contractor were employee compensation, indirect costs
(e.g., overhead, and general and administrative expenses), and to a lesser extent, other direct
costs, such as travel.

Questionable contract charges

Based on our audit tests, we identified questionable charges of $1,809, as shown in Table 1. We
provided details of these charges to the contractor and the IRS.




                                                                                            Page 2
                    Voucher Audit of the Treasury Information Processing Support
                              Services Contract – TIRNO-00-D-00013



                           Table 1: Schedule of Questionable Charges

                                   Questioned Activity                      Questionable
                                                                             Charges3
                     Contractor Unallowable Labor Cost                                    $712
                     Contractor Unsupported Labor Cost (net)                              $133
                     Contractor Unallowable Other Direct Cost                             $106
                     Contractor Unreasonable Cost                                         $110
                     Subcontractor Unallowable Other Direct Cost                          $276
                     Miscalculated Indirect Cost (net)                                    $472
                     Total                                                              $1,809


                    Source: TIGTA analysis of 25 vouchers submitted to the IRS.

The contractor unallowable labor cost related to the use of incorrect labor rates, and the
unsupported labor cost related to inconsistencies with supporting time records. The contractor
and subcontractor unallowable costs and the contractor unreasonable cost related to travel
charges.
The Federal Acquisition Regulation (FAR)4 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred. The FAR also provides that
costs shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR.

Voucher verification process

Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of
all necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment

3
  Questionable charges include related indirect costs and fees. The reference to net signifies that both positive and
negative amounts were identified.
4
  48 C.F.R. pt 1-53 (2002).
                                                                                                               Page 3
                   Voucher Audit of the Treasury Information Processing Support
                             Services Contract – TIRNO-00-D-00013



tailored to meet the needs of each contract. The CO and the COTR are required to jointly review
all appointed duties.
Prior to April 28, 2004, the Department of the Treasury’s Contracting Officer’s Technical
Representatives Handbook was the primary guidance for the COTRs.5 Part IV of the Handbook
states, in part, the COTRs are responsible for reviewing and approving invoices and vouchers on
contracts. It also states the COTRs will receive instructions regarding involvement in the review
and approval of invoices and vouchers from the CO. Attachment E of the Handbook also offers,
as a sample responsibility, that COTRs are responsible for reviewing and signing off on the
invoices to attest to their accuracy. Eighteen of the 25 vouchers we reviewed during this audit
were subject to this guidance.
Subsequent to April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference
to the Office of Federal Procurement Policy’s A Guide to Best Practices for Contract
Administration. The Guide offers, as a practical technique, those COTRs reviewing vouchers
under cost-reimbursement contracts should review, among other things, contractor time cards to
help assess the reasonableness of direct labor costs. The Guide also contains directions to review
major cost categories such as subcontractor charges to again determine the reasonableness of the
claimed costs.
The COTRs we interviewed stated they developed individual verification processes to review
their respective contract vouchers. These processes included reviews of the mathematical
accuracy of the vouchers, employees assigned to the task orders, reported periods of
performance, and travel costs. According to the COTRs interviewed, the individual verification
procedures were developed because they did not receive any written procedural guidance from
the CO. The COTRs did say, however, the CO provided a contractor presentation explaining
voucher preparation to all the COTRs assigned to the contract. However, three of the COTRs
interviewed expressed concern the training received was not adequate to prepare them for the
responsibilities for which they were tasked.
Neither the CO nor seven of the eight COTRs reviewed indirect costs. However, the remaining
COTR, along with the contractor, developed an internal tool called the Budget Actual Tracking
System (BATS) to monitor voucher charges. The system is used to forecast and anticipate
voucher information and simulate the voucher. The BATS tracks employee hours and rates the
contractor lead submits to the COTR biweekly. The hours are uploaded into the system along
with other anticipated direct costs, including costs for subcontractors. The system also maintains
the indirect cost rates (overhead, general and administrative, and facility capital cost of money).
Contract employees receive prior approval for all trips and provide the COTR with estimates of
all travel costs to load in the BATS. The COTR is then able to anticipate the amount of the

5
 Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the COTR
Handbook. The Circular also went on to state the Department of the Treasury would no longer maintain the
Handbook.
                                                                                                         Page 4
                 Voucher Audit of the Treasury Information Processing Support
                           Services Contract – TIRNO-00-D-00013



voucher prior to its receipt. If information does not match, differences are resolved quickly
through the contractor lead employee.
During the course of our audit, the CO and four of the eight COTRs expressed concerns with the
contractor’s billing process. Billing inconsistencies have the possibility of increasing the risk of
the IRS making improper payments to the contractor. However, we believe that administrative
enforcement of existing contract clauses would resolve most of the billing concerns expressed by
the CO and the COTRs.
We did not identify a significant amount of questionable charges on the vouchers we reviewed,
notwithstanding the inconsistent and incomplete voucher verification process described above.
We will continue to include a review of the IRS’ voucher verification process in future contract
voucher audits and, if warranted, recommend improvements to the process.

Recommendation
Recommendation 1: The Director, Office of Procurement, should ensure the appropriate CO
reviews the identified questionable charges of $1,809 and initiates any recovery actions deemed
warranted.
        Management’s Response: The Office of Procurement has accepted a credit of
        $1,809 from the contractor and has processed the appropriate documentation, which has
        become part of the task order file.


Contract Deliverables Were Acceptable

We examined contract correspondence files and interviewed the CO, the TIPSS Contract
Specialist, and 8 COTRs to determine whether the contractor’s deliverables were acceptable for
the 11 task orders related to our sampled vouchers. For two task orders, we spoke with the
customer, since the responsible COTR had retired in September 2004.
The task orders involved performing nonpersonal information processing support services in the
areas of Information Systems, Telecommunications Support, Organizational/Management, and
Operational Support. The contractor provided support services for the following IRS
projects/offices:
    •   Compliance Research Information System project.
    •   Business Systems Modernization Office.
    •   International Business Machine Systems Database.
    •   Integrated Collection System.
    •   Mid-America Development Center.
                                                                                             Page 5
                Voucher Audit of the Treasury Information Processing Support
                          Services Contract – TIRNO-00-D-00013



    •   Office of Revenue Analysis Enforcement Revenue Information System.
    •   Tax Return Database Graphic Print project.
    •   Electronic Tax Administration Payments Product Branch.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with the deliverables associated with the task orders
included in our tests.




                                                                                          Page 6
                    Voucher Audit of the Treasury Information Processing Support
                              Services Contract – TIRNO-00-D-00013



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether selected vouchers submitted and
paid under contract number TIRNO-00-D-00013 were appropriate and in accordance with the
contract’s terms and conditions. Specifically, we:
I.       Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
         certifying payment to the contractor.
         A. Interviewed the Contracting Officer and eight Contracting Officer’s Technical
            Representatives to confirm our understanding of the voucher verification process.
         B. Documented voucher processing risks including accuracy, supportability, and
            allowability of voucher charges and concluded as to the overall control environment.
         C. Interviewed IRS personnel involved in the administration of the contract to identify
            any concerns that existed regarding the contractor, its billing practices, or any specific
            vouchers.
II.      Verified whether voucher charges submitted by the contractor and paid by the IRS were
         accurate, supported, and allowable.
         A. Our sample selection method involved two stages and various assumptions
            concerning the universe of the Request Tracking System1 recorded transactions to
            sample. First, from a total of 632 transactions, we identified 9 large or unusual
            transactions for further review. Next, we eliminated 315 transactions prior to 2003 to
            ensure supporting documentation would be readily available. The elimination also
            afforded us the opportunity to identify current cost reimbursable internal control
            problems and the ability to discuss adverse conditions with IRS employees and
            managers who would be knowledgeable of the current voucher verification process.
             From the remaining 308 transactions, we randomly selected 35 transactions with
             posting dates between January 1, 2003, and January 27, 2005. We then chose the first
             16 transactions resulting in a total sample of 25 transactions that, for analysis
             purposes, are synonymous with paid contract vouchers. The task orders represented
             in the sample total $53,130,113.40, or 87.54 percent of the $60,691,545.40 contract


1
 The Request Tracking System allows IRS personnel to prepare, approve, fund, and track requests for the delivery
of goods and services. The System also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.

                                                                                                            Page 7
                Voucher Audit of the Treasury Information Processing Support
                          Services Contract – TIRNO-00-D-00013



          awarded amount; the vouchers sampled equal 10.93 percent of those task orders. We
          believed this sampling method would provide sufficient evidence to accomplish our
          audit objective and would result in acceptable management corrective action without
          the need for a precise projection of sample results.
          For reference purposes, the 632 transactions, recorded from the initiation of the
          contract to February 17, 2005, involved 24 task orders with award amounts of
          approximately $60.7 million and acceptance for payment amounts of approximately
          $54 million. Our sampling population of 317 transactions involved 18 task orders
          with acceptance for payment amounts of approximately $29 million. The final
          sample of 25 vouchers had performance dates from December 2002 to
          September 2004 and involved approximately $5.8 million in IRS payments related to
          11 task orders. We verified support for approximately $5.6 million, which consisted
          of labor costs greater than $5,000, Other Direct Cost greater than $100, all
          subcontractor labor and Other Direct Cost, and all indirect costs.
       B. Obtained supporting documentation for the vouchers in the sample from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the vouchers and supporting
             documentation.
          2. Traced voucher charges to supporting documentation.
          3. Verified whether voucher charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether voucher charges were allowable under the terms and conditions
             of the contract.
III.   Verified whether there was acceptable existence of deliverables, as stipulated in the
       contract, for the 11 task orders related to our sampled transactions through interviews and
       reviews of project files.




                                                                                          Page 8
                Voucher Audit of the Treasury Information Processing Support
                          Services Contract – TIRNO-00-D-00013



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Bobbie Draudt, Lead Auditor
Robert Beel, Senior Auditor
Thomas Dori, Senior Auditor
Richard Louden, Auditor




                                                                                      Page 9
               Voucher Audit of the Treasury Information Processing Support
                         Services Contract – TIRNO-00-D-00013



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons
       Agency-Wide Shared Services OS:A
       Office of Procurement OS:A:P




                                                                       Page 10
                 Voucher Audit of the Treasury Information Processing Support
                           Services Contract – TIRNO-00-D-00013



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

•   Questioned Costs – Actual; $1,809 (see page 2).

Methodology Used to Measure the Reported Benefit:

We examined vouchers and supporting documentation obtained from the Internal Revenue
Service’s (IRS) Office of Procurement, as well as documentation received directly from the
contractor, to verify charges for a sample of 25 vouchers. We selected our sample from a total
population of approximately $29 million in transactions processed by the IRS. The 25 vouchers
had performance dates from December 2002 to September 2004 and involved approximately
$5.8 million in IRS payments.
Our review resulted in the identification of questionable charges of $1,809. Specifically, these
charges consisted of $1,094 in unallowable costs, $133 in unsupported costs, $110 in
unreasonable cost, and $472 in miscalculated indirect cost.




                                                                                           Page 11
    Voucher Audit of the Treasury Information Processing Support
              Services Contract – TIRNO-00-D-00013



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 12
Voucher Audit of the Treasury Information Processing Support
          Services Contract – TIRNO-00-D-00013




                                                        Page 13
